2oUSCANo. 20-55921

SUPREME COURT OF THE UNITED STATES

Vincent W. Shack,
Petitioner,

vs.

NBC UNIVERSAL MEDIA, LLC et al,
IMG WORLDWIDE, INC,
LADIES PROFESSIONAL GOLF ASSOCIATION,
SAMSUNG ELECTRONICS AMERICA INC., AND DOES 1 TO 10
Respondents.

On Petition for a Writ of Certiorari to

ORDER of the United States District Court for the Central District California

FILED
JAN 1 6 202!
j^PEME'cnlm^'y

PETITION FOR A WRIT OF CERTIORARI

Vincent W. Shack
64337 Doral Drive
Desert Hot Springs, California 92240
ygreengolf@aol.com
(760) 218-9777

I. Question Presented

Does the law afford the means to prevent and redress alleged civil right
abuse by public officers and agencies? " The court allowed the use of
United States Constitutional Rights to be granted to one at the expense of
another"

Does governmental privileges extend to federal agents who clearly violate
constitutional rights and act outside their authority? Bivens v. Six
Unknown Named Agents of Federal Bureau of Narcotics.

PARTIES TO THE PROCEEDINGS

NBC UNIVERSAL MEDIA, LLC et al,
P. K. Schrieffer
100 North Barranca Street Suite 1100
West Covina, California 91791
IMG WORLDWIDE, INC,
Robert B. Salley, Esq
Tharpe & Howell
15250 Ventura Boulevard, Ninth Floor
Sherman Oaks, California 91403-3221
LADIES PROFESSIONAL GOLF ASSOCIATION,
Robert B. Salley, Esq
Tharpe & Howell
15250 Ventura Boulevard, Ninth Floor
Sherman Oaks, California 91403-3221
SAMSUNG ELECTRONICS AMERICA INC., AND DOES 1 TO 10
Lawrence Ramsey
Bowman and Brooks
970 West 190th Street Suite 700
Torrance, California 90502

II. Table of Contents
Question Presented

x

Table of Contents

11

Table of Authorities

in

Petition for Writ of Certiorari

1

Opinions Below

1

Jurisdiction

1

Constitutional Provisions Involved

1-2

Statement of the Case

2

a. Direct Appeal Court of Appeal-State of California
Fourth District Division Two (why court erred in not
upholding SLAPP suit)...................................................................

10

b. Direct appeal to the United States District Court
(why court erred in not granting leave....................................

10

c. Direct appeal to the United States District Court
of California (why case transfer to state court was denied)

13

REASONS FOR GRANTING WRIT

16

CONCLUSION

17

APPENDIX
' The order(s) of the United States District Court
For the Central District of California dated April 30, 2020 and June 17, 2020

III. Table of Authorities
Cases

Stephen Gatto, Plaintiff and Respondent, v. County of Sonoma
et al., Defendants and Appellants., 98 Cal. App. 4th 744...........

2

Benitez v. North Coast Women’s Care Medical Group, Inc.
et al. August 2008 the California Supreme Court...............

3,4

Rooker-Feldman doctrine

5-6

Bianchi, 334 F.3d at n.4

6

Statutes
Unruh Civil Rights Act, CC § 51

2,3

Government Claims Act (Gov. Code, § 911.8, subd (b), 913, subd(b)

3

California’s “Strategic Lawsuits Against Public Participation,”
(anti-SLAPP) 425.16. Constitutional Law § 55............................

5,8,9,10,13,17

Cal. Civ. Code § 52.1(b)

2,3

Cal. Const, art. 1 § 2

2

Constitutional Provisions
Federal 42 U.S.C. § 1983

1,2,13,16

U.S.C. 1868 14th Amendment

1,2,14

IV. Petition for Writ of Certiorari
Vincent W. Shack, a resident a Desert Hot Springs, California respectfully
petitions this court for a writ of certiorari to review the judgment of the United
States District Court Central District of California.
V. Opinions Below
The decision by the United States District Court Central District of
California denying Mr. Shack’s direct appeal is reported as the Court of AppealState of California Fourth District Division Two. The United States District Court
Central District of California Court denied Mr. Shack's petition on April 29, 2020.
That order is attached at Appendix.
VI. Jurisdiction
Mr. Shack's petition for hearing to the United States District Court Central
District of California was denied on April 29, 2020. Mr. Shack’s invokes this Court's
jurisdiction under 28 U.S.C. § 1257, having timely filed this petition for a writ of
certiorari within ninety days of the United States District Court Central District of
California’s judgment.
VII. Constitutional Provisions Involved
United States Constitution, 42 First Amendment: Annotated Congress shall
make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.
United States Constitution, Fourteenth Amendment: All persons born or
naturalized in the United States, and subject to the jurisdiction thereof, are citizens
1

of the United States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
VIII. Statement of the Case
Plaintiff, Mr. Vincent Shack expresses his spiritual justice duties as he
submits this writ of certiorari. Shack considers his spirit as a fighter with a heart­
felt desire and effort to demonstrate there is no better engagement than to fight for
the truth than the pursuit of truth, freedom and unalienable rights granted or
afforded to all Americans. This is the premise of this case. Shack the Plaintiff has
relied on the judicial system as the best way to resolve this civil matter. The
Plaintiff does so after being dealt a Civil Death within his native State of
California.
Similar in the case of Mr. Stephen Gatto. Mr. Gatto a patron who was ejected
out of a county fair ejected for refusing to remove his vest bearing a motorcycle club
insignia. His (Gatto) Government Claims Act claim got rejected. He (Gatto) sued
under the Unruh Civil Rights Act, Cal. Civ. Code § 51(b), and Cal. Const, art. 1, § 2,
enforceable through a Cal. Civ. Code § 52.1(b) action for damages. The Sonoma
County Superior Court (California) awarded him damages and attorney fees. The
fair had a dress code against provocative apparel and "gang insignia." The trial
court dismissed the city as a party, as it had not adopted the dress code. The

2

appellate court found that, as the § 51(b) claim derived from common law principles,
and as the § 52.1(b) claim sounded in tort they were subject to the Cal. Civ. Proc.
Code § 340 one-year statute of limitations. But the Government Claims Act
extended the limitations beyond the one-year. Enforcement of the dress code did not
deprive the patron of full and equal access to accommodations in violation of the
Unruh Act. The legislature intended to confine the scope of the Unruh Act to types
of discrimination it listed. Any judicial expansion of coverage was to be done
carefully, subject to a three-step inquiry. The dress code was, however, void for
vagueness and facially overbroad, and its enforcement against the patron deprived
him of his Due Process Clause liberty interest in personal dress and appearance.
The definition of "gang," in general, was notoriously imprecise. The dress code did
not contain ascertainable standards. There was no showing that wearing of such
insignia would lead to violence.
For the foregoing reasons, the trial court correctly concluded that the
Government Claims Act applied to this action and extended the limitations period
beyond the one year specified in section 340 of the Code of Civil Procedure. Because
Gatto filed his complaint in the superior court within six months from the date of
the notice he received of the rejection of his claim (Gov. Code, §§ 911.8, subd. (b),
913, subd. (b)), it was not time-barred.
The decision of the California Supreme Court answer in the case of Benitez v.
North Coast. Do the rights of religious freedom and free speech, as guaranteed in
both the federal and the California Constitutions, exempt a medical clinic’s

3

physicians from complying with the California Unruh Civil Rights Act’s prohibition
against discrimination based on a person’s sexual orientation? Their answer was no.
On August 18, 2008, in a unanimous decision, the California Supreme Court
reversed an appeals court’s that allowed an improper affirmative defense. And, that
improper defense was

[an] affirmative defense...stating that defendants’

“alleged misconduct, if any” was protected by the rights of free speech and freedom
of religion set forth in the federal and state Constitutions.
Guadalupe “Lupita” Benitez was denied infertility treatment by her Southern
California healthcare providers because she is a lesbian. The trial court rejected the
doctors’ claim that they do not have to follow California’s anti-discrimination law
because they have religious objections to serving lesbian patients. On December 5,
2005, the Court of Appeal reversed this decision and said that the doctors must be
given an opportunity to demonstrate that their refusal to treat Benitez was not
based on her sexual orientation. Benitez appealed the decision to the California
Supreme Court, and NCLR filed an amicus brief in support of Benitez, who was
represented by Lambda Legal.
The California Supreme Court reversed the Court of Appeal, and upheld the
trial court’s original decision. The Supreme Court held that non-discrimination laws
regulate discriminatory conduct, not speech or beliefs, and that medical providers
cannot violate those laws based on asserted religious objections to providing
services to LGBT people. The opposition’s petition for rehearing was denied on in
October, 2008.

4

The Shack Complaint alleges similar, there is no evidence presented of him
violating anyone's first amendment right but a clear display of his civil rights being
violated as well as his fourth amendment of the denial of State to deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
In Shack’s initial Complaint, he alleged intentional torts, violent criminal act
of physical battery at the hands of the defendant, infliction of emotional distress,
deceit, and nuisance, all of which resulted in a "violation of his Civil Rights
('Singled Out1). The intentional torts were dismissed as a result of the utilization of
the SLAPP motion. The element of battery and personal injury was never properly
disposed of. Shack moved to request his Complaint be reviewed by the Victim
Government Claim Board. The Board advised him the requirement would consist of
receiving Leave from the Fourth (4th) District Court of Appeal which would have
permitted the State California General Counsel to gain proper jurisdiction to
review Shack’s Victim Government Claim filing. Shack made the request five times
and was denied. Shack had a final choice to exercise the option of initiating a new
civil case or to have the case transferred to Federal court. Shack requested a
transfer of his case to the honorable Federal Court.
On April 29, 2020 the Honorable Percy Anderson with the United District
Court Central District of California entered an analysis stating “Shack clearly
documents being denied leave from the Fourth (4th) District Court of Appeal which
would have permitted the State Attorney of California General Counsel to gain

5

proper jurisdiction to review his Victim Government Claim”) • Shack’s request would
require the Court to review his state action and reverse the California Court of
Appeal for Shack’s benefit. The Court lacks the power to issue such a ruling. The
Honorable Judge further indicates the denial was solely based on “RookerFeldman which bars federal adjudication of any suit in which a plaintiff alleges an
injury based on a state court judgment and seeks relief from that judgment.”
Bianchi, 334 F.3d at n.4. See opinion Appendix 1.
On October 11, 2007, Mr. Vincent Shack purchased tickets to attend a
professional golfing event at the 2007 Samsung World Championship at the
Bighorn Country Club in Palm Desert, California.
Mr. Shack alleges on the 18th hole of the green after an errant tee-shot he
moved one or two steps to clear the path so the play could continue. As Shack
moved out of the path of the errant ball, Dan Beard struck Shack with either his
camera or forearm and "spewed derogatory language toward" Shack. Shack was
"visibly shaken and suffered immediate and serious injury" to his "neck area,
among other physical and mental injuries."
Shack further alleged that at the end of the day tournament security
personnel approached him and informed him that Beard had filed a complaint
alleging Shack had threatened him. Beard initially provided a false statement to
the police, Dkt 1. P.22 where he indicates the plaintiff stated he would cut him.
Beard pointed to Shack as he walked towards the clubhouse to report he had
been battered by Beard. The police immediately pursued Shack and asked that he

6

empty his pockets. Shack willingly emptied all his pockets and no weapon was
observed. The police returned to Beard and informed him Shack did not have a
weapon. Beard then changed his story and said he really didn’t hear Shack say he
had a knife.
Shack then sought out and spoke with the head of security for the
tournament, who informed him that no charges would be filed and he was free to
attend the tournament on the following day, October 12.
On October 12 when Shack attempted to purchase a ticket and to enter the
tournament, he was denied.
The police officers "removed" him from the tournament "in a manner that
was unnecessarily aggressive, demeaning and demoralizing. These humiliating and
debasing acts were committed in front of the golf community," which Shack relied
upon for "professional opportunities."
Shack alleged his forcible removal from the tournament on October 12 caused
him "great embarrassment and emotional distress," and described defendants'"
conduct on October 12" as "equally if not more outrageous" than Beard's act of
striking him in the neck and spewing derogatory comments toward him on October
11.
In addition, on October 12, tournament personnel and security "specifically
told" Shack that IMG and Bighorn "did not want him" at the tournament.
Shack alleged that, in refusing him entry to the tournament on October 12,
defendants "failed to act reasonably, prudently and in good faith." Shack also

7

alleged =that Beard and the other defendants, including IMG, the LPGA, NBC, and
Samsung, falsely reported to police and/or tournament security personnel that
Shack threatened Beard as a result of these reports. Shack was refused entry into
the tournament on October 12 and was forcibly removed by police officers in a
manner that was "unnecessarily aggressive, demeaning and demoralizing"; and,
finally, these actions humiliated Shack in front of the golfing community upon
which he relies for "professional opportunities.
On February 04, 2009 after three attempts to resolve the issue with the
defendants including one attempt by letter of performance written by California
barred Attorney Terry Lehr which was flatly ignored. Mr. Shack then filed a lawsuit
against six defendants (Dan Beard (camera man) IMG Worldwide, Inc. (IMG),
Ladies Professional Golf Association (the LPGA), NBC Universal, Inc. (NBC),
Samsung Electronics America, Inc. (Samsung), and Bighorn Properties, Inc.
(Bighorn).
Shack alleged the six defendants were the agents or employees of each other,
and the five "entity defendants" were in some manner responsible for Beard's
"outrageous battery" and for their own actions in reporting to police and
tournament security personnel that Shack threatened Beard.
Shack indicates during a Superior Court hearing with Judge Evans. Judge
Evans gave Shack leave to amend the first complaint to clarify the liability of the
defendants.
During Shack’s leave Beard’s attorney filed SLAPP a motion.

8

The motion went unopposed by the plaintiff while on leave as given by the
Courts to submit a second amendment civil complaint clarifying the liability of the
defendants (Demurrer of the defendants).
During the time of Shack’s permitted leave; the court granted Beard’s (the
6th defendant) motion for SLAPP.
Shack requested an ex parte hearing to address Beard’s SLAPP suit motion
which had been granted by the Superior Court Judge.
The courts denied the plaintiffs request for the ex parte hearing although the
SLAPP motion ruling was rendered while the plaintiff was placed on leave to
demurrer.
After realizing the court’s granting the defendant Bearden SLAPP motion all
other defendants filed and were granted.
IMG and the LPGA filed a SLAPP motion which was granted as to Shack's
first amended complaint, while NBC and Samsung later filed separate SLAPP
motions. Clearly showing all parties were acting in concert to avoid liability of the
defendant Beard SLAPP motion.
Judge Evans advised the defendants their SLAPP motion was premature in
that it should not be filed against a Cause of Action.
Shack argued IMG, the LPGA, NBC, and Samsung failed to meet their initial
burdens of demonstrating that his causes of action against them for "general
negligence" and "intentional tort" arose from protected activity.
Shack pointed out that Beard's alleged act of striking him in the neck did not

9

constitute protected speech or petitioning activity. The SLAPP motion was granted
under false pretense.
Shack filed a response indicating his first and second amended complaints,
Shack generally alleged that IMG, the LPGA, NBC, and Samsung were responsible
m some manner for Beard's "outrageous battery" or act of striking him in the neck.
2. DIRECT APPEAL TO THE COURT OF APPEAL-STATE OF CALIFORNIA
FOURTH DISTRICT DIVISION TWO
(why court erred in upholding SLAPP suit)
July 21, 2010 Shack filed a motion to the State of California Fourth District
Court of Appeal requesting extension of time to file a brief against NBC Universal,
Inc et al.
July 29, 2010 the State of California Fourth District of Appeal denied the
extension request. The rationale was the following: no further extensions will be
granted on the grounds of this application, the length of the record, the number and
complexity of issues, counsel’s newness to the case, the existence of other timelimited commitments, or any vacation.
March 04, 2011, Shack received a response from the State of California
Fourth District of Appeal upholding the trial courts SLAPP suit decision. During
oral argument the appellant judge (Justice King) asked the respondents, “why is
this not a case for battery?”
May 11, 2011, the plaintiff received a response from the Supreme Court of
California with his petition for review being denied. Dkt. 1, p.37
3. DIRECT APPEAL TO THE COURT OF APPEAL-STATE OF
CALIFORNIA FOURTH DISTRICT DIVISION TWO
(why court erred in not granting leave)
10

September 01, 2011 Shack filed the VCGCB and was advised the Victim
Government Claim is to be filed with the offending government entity the, Fourth
District Court of Appeal, Division two (2) Riverside, California who will forward it
to the state general counsel. Dkt. 1, p. 39
September 29, 2011 Shack received a response from the Victim
Compensation and Government Claims Board (VCGCB) with the determination
they had no jurisdiction over the Superior Court of Superior Court Judges. Dkt. 1, p.
39
August 1, 2012, Shack filed a motion with the 4th District Court requesting
leave as advised by the state General Counsel to permit the Victim Claim to be
reviewed.
The Fourth District Court of Appeal responded in order to grant leave there
must be motion filed to recall the court remittitur.
September 29, 2011, Shack filed a motion to recall remittitur.
Shack indicated the court responded to his motion to recall the remittitur
was based on judicial error twice.
Shack responded back indicating his motion was not based on judicial error
but a request to be granted leave to allow his claim to be reviewed by the State of
California General Counsel (Lyle Nishimi).
August 21, 2012, the plaintiff received a response from the State of
California General Counsel indicating his claim was being returned because it was
not presented within six (6) months after the event or occurrence (OPINION) as

11

required by law. Dkt. l,p. 41-42
Shack clearly documented the time was not exceeded. On September 01, 2011
Shack filed a complaint with the Victim Compensation and Government Claims
Board which was continuously delayed as he waited on the State of California
Fourth District Court of Appeal to respond to his request for receiving leave.
November 19, 2012 the State of California Fourth District Court of Appeal
denied Shack’s motion filed to recall remittitur from August 6, 2012 request. Dkt 1,
p. 45
May 18, 2015 Shack filed another motion to recall remitter for good cause and
not judicial error.
July 1, 2015 Shack received a response from the State of California Fourth
District of Appeal denying his request to recall remittitur indicating there were no
legal grounds for its recall.
July 12, 2019, Shack received a response from the State of California Fourth
District of Appeal with a denial of his fifth motion to recall the remittitur.
July 12, 2019, Shack received a response from the fourth Appellate District
Court indicating Shack filed his fifth motion to recall the remittitur which was
being denied on the same grounds as the denial of his fourth recall motion filed
August 16, 2016 where he sought leave from the courts to have the government
claims reviewed which were submitted with an earlier recall motion and forwarded
to the Office of General Counsel order filed November 19, 2012. Dkt. 1, p. 46
September 25, 2019 the Supreme Court of California denied Shack’s petition

12

for review was denied (motion to recall remittitur due to time restrictions beyond 30
days of the ORDER of the Court of Appeals 4th District Riverside, California.
3. DIRECT APPEAL TO THE UNITED STATES DISTRICT COURT OF
CALIFORNIA (why case transfer to state court was denied)
December 27, 2019, Shack filed a case transfer to the United States District
Court Central District of California. Shack alleged misuse of the United States
Constitutional First Amendment "freedom of speech" through the utilization of the
Strategic Lawsuits Against Public Participation," (SLAPP) civil code 425.16 by the
named defendants. Shack alleged violations of his rights based on the first and
fourteenth amendment with connective elements to various California state laws.
The Courts ultimately dismissed the request for transfer of the Court for lack
of subject matter jurisdiction under the Rooker-Feldman doctrine. (Dkt. 89.)
HOW DID THIS IMPACT MR. SHACK (statement of claim)?
Shack was the Executive Director of the Green House Golf Academy located
in Palm Springs, California during the time of the incidence.
The mission of the Green House Golf Academy was to introduce a healthy
lifestyle alternative to the local community who otherwise might not get the
exposure through the game of golf. Golf is a game played in a refined social
environment which is often a healthy change of pace for many living in tough
situations, sometimes surrounded by adverse conditions.
Shack’s desire to host such an academy was to aid the underserved children
in the target area an opportunity to maximize their athletic abilities which could
increase the possibility of financial support through scholarships in pursuit of a

13

higher education degree.
The area that Shack focused on was quite different from the area in which he
was reared. He was reared in an upper middle-class community where he was
privileged to be introduced to the game of golf. It was through his experience as a
junior golfer that led him to higher education. He received financial support in the
form of scholarships to attend college.
Palm Springs is a location where the game of golf is a big part of the
Coachella Valley economic make up. The specific target area of Palm Springs where
his academy was located (North Palm Springs) the median household income is
$25,707 compared to $83,269 in Indian Wells which is only 27 miles away. The
educational attainment of the adults in that area without a high school diploma age
25 and older is 20.3% and the high school graduation rate is only 23.9% in
comparison to the high school graduation rate for Coachella Valley Unified School
District which is 85.2%. The area is known for being one of the highest per capita
rates of HIV/AIDS in the nation. Between 2000 and 2008, about 365 per 100,000
population enrolled in drug rehabilitation. Of those who entered treatment, 75%
reported that their first use of any illicit substance was before the age of 21,
including 60% who reported the first use of drugs or alcohol before the age of 18.
The dire need of Shack’s academy was evident and self-explainable... to make
every effort to encourage the youth to engage in experiences that would lead them
to avoid many of the issues that saturates their community.
Shack’s academy functioned from 1997 to 2007. He trained 350 students of

14

various ages. The participants have grown into responsible members of the
community and are now raising junior golfers of their own in our desert community.
How does this differ from Shack? Shack’s academic support consisted of
him being one of five recipients of the Western State Golf Association (WSGA)
scholarship (Bill Dickey Scholarship Association) for Southern California. He won
several junior golf events which included but is not limited to 2nd place at the 2nd
place in the 1981 WSGA Junior Golf Tournament, 1st Place in the 1982 WSGA
Junior Golf tournament, and 1st Place in the NAACP tournament in Los Angeles.
While serving as the Executive Director, the Academy was recognized by the
Golf Journal as one of the nation’s top junior golf programs.
During the tenure of being the Executive Director, the Green House Golf
Academy received financial support from Calient Band of Cahuilla Indians Tribal
Council, the United States Golf Foundation, and the USGA Good of the Game
Matching Funds Grant. The academy received golf equipment and other support
from the American Golf Association, Calloway Golf, the legendary singer Nancy
Wilson, Congresswoman Mary Bono, The Disney Foundation, Desert Regional Med,
Center Foundation (Healthy Communities) The Ford Foundation, Palm Springs
Police, Fire dept. The Variety Club of the Desert, Meisel Senior Center. The
academy hosted golf tournaments at the O'Donnell Golf Course, Palm Springs
California for 3 consecutive years 1999-2002. The Green House Academy produced
two Community Cable T.V. programs (2002, 2004), a Tribute to the late Mr. James
Jessie, Director at the City of Palm Springs for his work with The Black History

15

month program and the 2nd cable T.V. program was History of The Knight, Tribute
to Mr. Joseph Beaver for his work with the Coachella Valley Black Cultural
Society. The academy also made a tribute to two African American National Golf
Champions Alton Duhon and Bill Wright.
Shining a light on the day of the incident and thereafter, the purpose of the
plaintiff attending the 2007 Samsung World Championship at the Bighorn Country
Club golf tournament was two-fold. To engage in the enjoyment of the golf
community, network with the golf industry from around the world, and gather
information that ranged from latest equipment and training, administration, media
and promotion.
After being attacked and remaining in continued litigation with the
defendants. Shack’s engagement in the golf community has greatly diminished and
the Green House Golf Academy closed shortly after the said incident.
In addition to the closing of Shack’s academy, he has experienced
considerable emotional stress. The experiences included but are not limited to
anxiety, shame, humiliation, periods of guilt, insomnia, fear, and loss of long-term
friendships. Shack lost confidence in the ability to secure funds or establish
partnerships within the golf community or some of its supporters after his
experience thus resulting in the closure of his academy.
REASON FOR GRANTING WRIT
The question of law raised by this petition is one that even this Court has
recognized needs to be decided, when the time is right and the issue is properly
presented by the facts of the case. The time is right now. This case fairly presents
16

the issue.
Shack alleges misuse of the United States Constitutional First Amendment
"freedom of speech" through the utilization of the Strategic Lawsuits Against Public
Participation/' (SLAPP) civil code 425.16 by the named defendants. Although the
Superior Court tentative ruling warned the defendants the SLAPP motion was
premature and should not be filed against a Cause of Action. Shack indicates being
denied Leave from the Fourth (4th) District Court of Appeal which would have
permitted the State California General Counsel to gain proper jurisdiction to review
the plaintiffs Victim Government Claim filing. Shack also alleges intentional torts,
violent criminal act of physical battery at the hands of the defendant, infliction of
emotional distress, deceit, and nuisance, all of which resulted in a "violation of
Plaintiffs Civil Rights ('Singled Out1). The intentional torts were dismissed as a
result of the utilization of the SLAPP motion. The element of battery and personal
injury was never properly disposed of.
CONCLUSION
For the foregoing reasons, Mr. Shack respectfully requests the Court to
issue a writ of certiorari to review the constitutionality of the defendant’s
pleadings. The OPINION of the 4th District Court upheld the decision of the lower
court even “in view” of no evidence in support of a Constitutional misuse of
defendants 1st Amendment rights or SLAPP suite.
DATED this 7th day of July 2020.
Respectfully submitted,

K
Vincent W. Shack, pro se
17

